Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




         Early Effects of the
    Prospective Payment System
on Access to Skilled Nursing Facilities




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1999
                      OEI-02-99-00400
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION*                                                 HEADQUARTERS

Jodi Nudelman, Project Leader                           Jennifer Antico, Program Specialist

Miriam Gareau                                           Barbara Tedesco, Statistician

Judy Lin                                                Scott Horning

Steve Shaw                                              Linda Moscoe


*All staff in the New York Regional Office and some staff in the Chicago Regional Office, led by

Ann Maxwell, participated in the data collection.




      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                     EXECUTIVE SUMMARY


PURPOSE

To identify any early effects of the nursing home prospective payment system on Medicare
beneficiaries’ access to skilled nursing facilities.

BACKGROUND

The Health Care Financing Administration (HCFA) asked the Office of Inspector General to
assess whether the new prospective payment system for skilled nursing facilities (SNFs) is causing
access problems for Medicare beneficiaries. The Balanced Budget Act of 1997 changed SNF
reimbursement to a prospective payment system. Beginning with their first cost reporting period
after July 1, 1998, SNFs are paid through “per diem, prospective, case-mix adjusted” payments
which cover routine, ancillary, and capital-related costs. Concerns have been raised about the
adequacy of the payments and the effect of the new system on patients and on nursing homes.

To address these concerns, we contacted a random sample of hospital discharge planners who are
responsible for coordinating nursing home care for patients being discharged from hospitals. We
asked them about their ability to place Medicare patients in nursing homes and about changes in
nursing home admissions practices. Our analysis is primarily based on patients who are likely to
leave the nursing home when their Medicare Part A coverage ends. We also examined Medicare
data related to SNF discharges and hospital length of stay.

FINDINGS

So far, no serious problems in placing Medicare patients in
nursing homes are apparent. However, nursing homes are
changing their admissions practices in response to the
prospective payment system.
Generally, discharge planners report that they can place Medicare patients.

Most discharge planners (66 percent) report that it is “not at all difficult” to place patients in
nursing homes when their stay will be paid under the Medicare prospective payment system.
Another 32 percent say that it is “somewhat difficult,” while 1 percent report that it is “very
difficult.” Discharge planners do not indicate that they are unable to place these patients. They
commonly explain that nursing homes generally want Medicare patients because they are short-

Early Effects of PPS on Access to SNFs           1                                   OEI-02-99-00400
term or because nursing homes are reimbursed at a higher rate for these patients than for
Medicaid patients. At the same time, about a fifth believe that it has become more difficult to
place Medicare patients in the past year because of the new prospective payment system. Also,
44 percent of discharge planners report that it has become more difficult to place patients whose
Medicare Part A coverage will likely end before they are discharged and who will then become
Medicaid residents. However, discharge planners do not generally attribute this to the
prospective payment system.

Medicare data show no changes in nursing home placements.

Medicare data confirm that Medicare patients are still being placed in nursing homes. Specifically,
these data do not show any change in where patients are being placed and in the types of
Medicare patients who are being placed in nursing homes. In addition, Medicare data indicate an
increase in the total number of Medicare beds, which is a key factor in nursing home access.

Nursing homes are changing their admissions practices in response to the
prospective payment system.

About half of all discharge planners report that nursing homes have changed their admissions
practices as a result of the new prospective payment system. Discharge planners explain that
nursing homes request more detailed clinical information about the patient and are more
consistently coming to the hospital to directly assess the patient before making admissions
decisions.

The patients who have become harder to place are those who need extensive
services.

When asked which types of patients have become more difficult to place, the majority of
discharge planners (58 percent) identify patients who require extensive services. They specifically
mention patients who require intravenous feedings, intravenous medications, tracheostomy care,
or ventilator/respirator care. Discharge planners report that some types of special care and
clinically complex patients have also become more difficult to place in the past year.

On the other hand, the patients who have become easier to place are those who
need rehabilitation services.

Most discharge planners (69 percent) report that Medicare patients who need special
rehabilitation have become easier to place in nursing homes in the past year. They most
commonly state that orthopedic patients, who have had a hip or knee fracture or joint
replacement, and stroke patients, who require intensive short-term rehabilitation, have become
easier to place. It is important to note that special rehabilitation is reimbursed at the highest rate
under the prospective payment system.


Early Effects of PPS on Access to SNFs             2                                    OEI-02-99-00400
CONCLUSION

It appears that in an early response to the prospective payment system, some nursing homes have
modified their admission practices. However, despite this practice change, there is no direct
evidence that Medicare patients are not receiving the SNF care they require. This is partly due to
an overall increase in the number of Medicare beds and to the fact that Medicare continues to
reimburse at a higher rate than Medicaid, which is the primary payer of nursing home care.

We stress that this is an early assessment of the effects of the prospective payment system on
access. We believe that the Department must remain vigilant to potential problems for Medicare
patients and for nursing homes. As part of this effort, we will periodically replicate this study of
discharge planners and analysis of Medicare data. We will particularly focus on the types of
patients who were identified as being more difficult to place. Additionally, we suggest that the
Administration on Aging (AoA) alert long-term care ombudsmen to potential admissions
problems in their areas. The AoA also needs to monitor related National Ombudsmen Reporting
System data for patterns of abuse.

COMMENTS

We received comments on the draft report from the Health Care Financing Administration. They
generally agree with our findings and our conclusion and note that our report is consistent with
the early findings of their ongoing monitoring efforts. A copy of their comments is provided in
Appendix B.




Early Effects of PPS on Access to SNFs            3                                  OEI-02-99-00400
                            TABLE OF CONTENTS



                                                                                                                          PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Discharge Planners Can Place Medicare Patients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Data Show No Changes in Placement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Nursing Homes are Changing Admissions Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Extensive Services Patients More Difficult to Place . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Rehabilitation Patients Easier to Place . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Mixed Evidence about Patient Hospital Stays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Early Effects of PPS on Access to SNFs                           4                                              OEI-02-99-00400
                               INTRODUCTION

PURPOSE

To identify any early effects of the nursing home prospective payment system on Medicare
beneficiaries’ access to skilled nursing facilities.


BACKGROUND

The Health Care Financing Administration (HCFA) asked the Office of Inspector General to
assess whether the new prospective payment system for skilled nursing facilities (SNFs) is causing
access problems for Medicare beneficiaries. Concerns have been raised about the adequacy of the
payments and the effect of the new system on patients and on nursing homes.

Skilled nursing facility care is covered by Medicare Part A under certain conditions. Specifically,
the patient must have been hospitalized for three or more days within the last 30 days for the
condition that will be treated in the SNF. The SNF stay must also be certified as medically
necessary and the patient must require daily skilled nursing or skilled rehabilitation services. The
number of SNF days provided under Medicare is limited to 100 days per benefit period, with a
co-payment required for days 21 through 100.

In 1989, Medicare paid $2.8 billion to nursing homes, or about 4.7 percent of the Medicare
budget. In 1997, this amount increased to $12.2 billion, which was 5.9 percent of the Medicare
budget.

Medicare Payments to Nursing Homes

Medicare Part A payments for SNF care cover routine costs such as the room, dietary service,
nursing service, minor medical supplies, and social service. Payments also cover capital costs for
the building and equipment, and ancillary care for specialized services such as therapy, laboratory
tests, and transportation. Until recently, SNFs were reimbursed on a retrospective, reasonable
cost basis.

The Balanced Budget Act of 1997 changed SNF reimbursement to a prospective payment system
in order to control Medicare Part A program costs. Beginning with the SNF’s first cost reporting
period after July 1, 1998, SNFs are paid through “per diem, prospective, case-mix adjusted”
payments which cover routine, ancillary, and capital-related costs. The per diem payment is based
on fiscal year 1995 Part A & B costs adjusted using the SNF market basket index (minus 1
percent), case-mix from resident assessments, and geographical wage variations. The market


Early Effects of PPS on Access to SNFs            5                                  OEI-02-99-00400
basket index represents an inflation factor. The case-mix index recognizes that SNF residents
 require different levels of care and is based on an assessment that assigns each resident to one of
44 Resource Utilization Groups (RUGS-III). This new payment system is being phased in over a
three year transition period.

Discharge Planners

By definition, all Medicare Part A beneficiaries in SNFs are discharged from hospitals. Hospital
discharge planners who are responsible for coordinating SNF care are therefore in a unique
position to assess any early effects of the prospective payment system on access to nursing home
care.

Federal regulations require all hospitals to offer discharge planning services. The goal of these
services is to identify a patient’s post-hospital needs and ensure that he or she is discharged to a
safe environment with the appropriate level of services. In most hospitals, the social work, case
management, or utilization review department has primary responsibility for discharge planning.
They place patients in a variety of settings including SNFs, home health care, hospices, or
intermediate care.

Discharge planning staff generally follow a standard process. In a typical scenario, staff screen
patients’ records within 24 hours of admission. They attempt to identify patients who will require
discharge planning services, such as those who are 65 years and older and living alone or those
with possibly life-threatening illnesses. They then conduct a psycho-social assessment and discuss
the patient’s care plan with his or her nurses and physicians, as well as utilization review staff, and
other relevant interdisciplinary team members. Discharge planners also solicit the patient’s
preferences and contact family members or other potential caregivers to get their input and
cooperation. Based on this information, they attempt to place the patient in the most appropriate
setting.

Nursing Home Concerns

The nursing home industry has raised several concerns about the new reimbursement system. The
industry believes that the system is causing considerable pressure on SNFs and that it will reduce
payments to these facilities. In media reports, industry representatives have expressed concern
that the new system may cause some SNFs to go out of business.



METHODOLOGY

We conducted this inspection in two stages. First, we conducted a survey of hospital discharge
planners. To do this, we randomly selected a total of 200 hospitals in eight States. We contacted
each hospital and sought to interview the discharge planning supervisor or the staff person who


Early Effects of PPS on Access to SNFs             6                                   OEI-02-99-00400
was most familiar with the study issues. We were able to interview a total of 180 discharge
planners between June 16, 1999 and June 25, 1999. We specifically asked respondents about
their ability to place different types of patients in nursing homes and about changes in nursing
home admissions practices in the past year. In order to isolate the effect of the new payment
system, our analysis is primarily based on patients who are likely to leave the nursing home when
their Medicare Part A coverage ends. However, we also asked questions about patients who are
likely to outstay their Medicare Part A coverage.

Second, we reviewed Medicare data from two sources. Specifically, we analyzed trends in the
number of nursing home beds using data from the Provider of Services (POS) File which is based
on the Online Survey Certification and Reporting System (OSCAR). We also analyzed post-
hospital services from a one percent sample of Medicare beneficiaries from the Medicare National
Claims History File.

Sample Selection

We selected a two-stage stratified cluster sample for this inspection. The first stage of sampling
was a stratified sample of eight States:

        the four States with the most SNF beds (CA, NY, IL, TX);

        two of the four States currently using a Medicaid prospective payment system (MS, ME); 

        two States randomly selected from the remaining 40 contiguous States (VA, CT).


At the second stage, we selected a simple random sample of 25 hospitals within each of these
States. This State sample is the same as the one used for two related studies being conducted by
the Office of Inspector General. These forthcoming studies are: Nursing Home Financial
Screening and Distinct Part Rules, OEI-02-99-00340 and Nursing Home Resident Assessment,
OEI-02-99-00040.

Limitations

The findings in this report are primarily based on self-reported data that were not independently
verified. Further, this report is limited to identifying only early effects of the new reimbursement
system. The majority of SNFs started shifting to the prospective payment system as of January 1,
1999. In addition, the most recent Medicare data that were available for this report include the
first five months of 1999. Note that time lags may occur and that these data may not be complete.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




Early Effects of PPS on Access to SNFs           7                                   OEI-02-99-00400
                                         FINDINGS

So far, no serious problems in placing Medicare patients in
nursing homes are apparent. However, nursing homes are
changing their admissions practices in response to the
prospective payment system.
The following findings present a more detailed discussion of Medicare beneficiaries’ access to
nursing home care. They also describe early effects on access due to changes in nursing home
admissions practices.

Generally, discharge planners report that they can place Medicare patients.

Most discharge planners (66 percent) report that it is “not at all difficult” to place patients in
nursing homes when their stay will be paid under the Medicare prospective payment system.
Another 32 percent say that it is “somewhat difficult,” while 1 percent report that it is “very
difficult.” Discharge planners do not indicate that they are unable to place these patients. They
commonly explain that nursing homes generally want Medicare patients because they are short-
term or because nursing homes are reimbursed at a higher rate for these patients than for
Medicaid patients. Some discharge planners also note that there is an adequate number of beds
available in their area and therefore it is not difficult to place these patients. Further, most
discharge planners (60 percent) report that nursing homes never or rarely refuse Medicare patients
because they do not have a Medicare certified bed available.

At the same time, about a fifth of all discharge planners believe that it has become more difficult
to place Medicare patients in the past year because of the new prospective payment system. Also,
44 percent of discharge planners report that it has become more difficult to place patients whose
Medicare Part A coverage will likely end before they are discharged and who will then become
Medicaid residents. However, discharge planners do not generally attribute this to the
prospective payment system.

Medicare data show no changes in nursing home placements.

Medicare data generally support discharge planners’ views. The data indicate that Medicare
patients are still being placed in nursing homes. Specifically, the data show no change in where
Medicare patients are being placed. As shown in Table 1, the proportion of all Medicare hospital
discharges that went to SNFs does not differ between the first five months in 1998, which is prior
to the implementation of the prospective payment system and the same five months in 1999,
which is after the implementation of the new system.


Early Effects of PPS on Access to SNFs           8                                  OEI-02-99-00400
                                         Table 1

             Distribution of Medicare Discharges to Post Hospital Services,

                            First Five Months of 1998 and 1999


                                 January to May         January to May
                                      1998                   1999
         Post Hospital              Percent of             Percent of            Difference
           Service               Total Discharges       Total Discharges         1998-1999


     Home                                58.7                 57.2                    -1.5

     SNF                                 15.6                 15.4                    -0.2

     Home Health                         9.8                  10.8                    1.0

     Intermediate Care                   2.5                   3.1                    0.6

     Other                               13.5                 13.5                    0.0
                                                        Source: Medicare National Claims History File


The data also do not show any large changes in the types of Medicare patients who are being
placed in nursing homes. As shown in Table 2, there are no substantial differences in the
diagnoses of patients who were discharged to SNFs in the first five months of 1998 compared to
the same time period in 1999. The ten most common diagnoses discharged to SNFs are the same
in both years.

There are small differences in the proportion of discharges to SNFs for a few of the individual
diagnoses. The largest difference is the proportion of discharges to SNFs for stroke patients.
This proportion decreased by 1.4 percentage points from the first five months of 1998 to the same
period in 1999.




Early Effects of PPS on Access to SNFs              9                                  OEI-02-99-00400
                                          Table 2

           Distribution of Medicare Discharges by Diagnosis Related Groups,

                            First Five Months of 1998 and 1999


                                                    January to May January to May
                                                         1998           1999
                                                      Percent of         Percent of        Difference
  DRG                     Description                Discharges to      Discharges to      1998-1999
                                                         SNFs               SNFs


  209     Major joint limb reattachment                   7.2                 6.6              -0.5

   089    Simple pneumonia and pleurisy                   6.9                 7.2              0.4

   014    Specific cerebrovascular disorders              6.0                 4.5              -1.4**

  127     Heart failure and shock                         5.1                 5.0              -0.0

   079    Respiratory infections and inflammation         3.7                 3.9              0.2

  210     Hip and femur procedures                        3.5                 4.0              0.5

  416     Septicemia                                      3.0                 3.1              0.1

  296     Nutritional/misc. metabolic disorders           2.9                 3.3              0.4

   088    Chronic obstructive pulmonary disease           2.6                 2.5              -0.2

  320     Kidney and urinary tract infections             2.5                 2.9              0.4

**Statistically significant at the .01 level. 	          Source: Medicare National Claims History File
                                                         Note: Differences may be due to rounding.

Further, it is important to note that the most recent available data show that at the time that the
prospective payment was implemented, the total number of discharges to SNFs was increasing.
As shown in Table 3, in 1996, there were about 1.7 million discharges to SNFs, which amounted
to about 13.6 percent of all Medicare hospital discharges. In 1998, the number of discharges to
SNFs increased to approximately 1.8 million, which was about 15.3 percent of all Medicare
hospital discharges. (Similar data are not available for 1999.)




Early Effects of PPS on Access to SNFs              10                                  OEI-02-99-00400
                                         Table 3

             Distribution of Medicare Discharges to Post Hospital Services,

                                      1996 to 1998


                                   1996          1997              1998
           Post Hospital        Percent of    Percent of        Percent of      Difference
             Service              Total          Total             Total        1996-1998
                               Discharges     Discharges        Discharges


           Home                     60.1          59.0              58.9            -1.2

           SNF                      13.6          14.5              15.3            1.6

           Home Health              10.8          10.7              9.8             -1.0

           Intermediate             2.4           2.4               2.6             0.2
            Care

           Other                   13.1           13.4             13.4             0.3
                                               Source: Medicare National Claims History File
                                               Note: Differences may be due to rounding.

Two-thirds of discharge planners also report that the total number of Medicare patients they
discharge to nursing homes has increased over the past two years. Most of these respondents
suggest that this increase is due to a greater number of patients who are elderly and who need
skilled care. They also note that patients are staying in the hospital for shorter periods of time and
that some are leaving sicker and therefore more likely to need skilled care. Few discharge
planners (7 percent) mention that changes in the number of Medicare patients discharged to
nursing homes are the result of the new prospective payment system.

In addition, annual Medicare data show an increase in the total number of Medicare beds, which is
a key factor in nursing home access. As shown in Table 4, in 1998, there were approximately
17,300 nursing facilities with about 1.86 million nursing home beds nationwide. About 722,000
of these beds, or nearly 40 percent, were Medicare certified. Since 1996, the total number of
Medicare certified beds has increased by 7 percent. Thus, an increase in capacity was occurring
just as the new perspective payment system was coming on-line.




Early Effects of PPS on Access to SNFs           11                                   OEI-02-99-00400
                                         Table 4

                     Total Number of Nursing Home Beds, 1996 to 1998


                                                                           Percent Change
                                          1996           1998                1996-1998

                Nursing



               Total Beds            1,848,335          1,861,281                 0.7%

                Total
             Medicare Beds               672,329        722,278                   7.4%

                                                                    Source: Provider of Services File


Discharge planners generally confirm these national trends. The majority (93 percent) state that
the total number of nursing home beds in their area has remained the same or has increased over
the past two years. Further, more discharge planners report an increase in the number of
Medicare certified beds than those who report an increase in all nursing home beds. Less than 10
percent of discharge planners attribute changes in the supply of nursing home beds in their area to
the new prospective payment system.

In addition, about eight percent of discharge planners report that they are aware of a nursing
home closing in their area in the past year. One percent report that a nursing home has closed as
the result of the prospective payment system. Others believe that these closures are due to poor
management or fraud. Note that we did not independently verify these reports.

Nursing homes are changing their admissions practices in response to the
prospective payment system.

About half of all discharge planners report that nursing homes have changed their admissions
practices as a result of the new prospective payment system. Nearly two-thirds state that the new
system has had some effect on their ability to place Medicare patients in nursing homes.
Discharge planners explain that in the past year nursing homes have requested more detailed
clinical information about patients. They note that nursing homes are increasingly looking at the
cost of care and of services before making admissions decisions. In some cases, nursing homes
review the cost of patients’ medications. Discharge planners also observe that nursing home staff
are more consistently coming to the hospital to directly assess the patient. About 20 percent of all
discharge planners specifically note that nursing homes are less willing to accept patients


Early Effects of PPS on Access to SNFs             12                                       OEI-02-99-00400
with certain medical conditions because of the prospective payment system. A similar proportion
also say that nursing homes will only take patients for whom they will be reimbursed at a high
rate.

The patients who have become harder to place are those who need extensive
services.

When asked which types of Medicare patients have become more difficult to place in nursing
homes, the majority of discharge planners (58 percent) identify patients who require extensive
services. (See Table 5.) These types of patients typically require complex direct nursing care and
expensive medications. They include patients who require intravenous feedings, intravenous
medications, tracheostomy care, or ventilator/respirator care.

Discharge planners report that some types of special care and clinically complex patients have also
become more difficult to place in the past year. Specifically, they mention patients who need
dialysis and patients who have surgical wounds or open lesions that require substantial direct
nursing care time and special supplies and medications.

Additionally, discharge planners comment that in the past year some other types of patients have
become harder to place. These include patients who require isolation, especially those with
antibiotic resistant infections, patients who have multiple diagnoses, and patients with behavior
problems.

Several discharge planners suggest that some of these patients may be harder to place because the
cost of their care may be higher than the amount that nursing homes are reimbursed under the
prospective payment system. A few discharge planners note that nursing homes have told them
that some of the supplies and equipment required by extensive services patients, such as IV
medications and ventilators, are too costly for them to provide under the new reimbursement
system. Several also observe that nursing homes are reluctant to accept patients with high
transportation costs, especially dialysis patients, because the cost of transporting these patients
may exceed the amount that nursing homes are reimbursed for these patients under the
prospective payment system.




Early Effects of PPS on Access to SNFs          13                                  OEI-02-99-00400
                                      Table 5

       Clinical Conditions That Have Become Harder to Place in the Past Year


             Clinical Condition*                                Percent of
                                                            Discharge Planners

            Dialysis                                                33.8

            IV Medications                                          31.5
            Ventilator/Respirator                                   28.8

            Surgical Wounds or Open Lesions                         17.7
            Isolation/Antibiotic Resistant Infection                15.2
            IV Feedings                                             15.0

            Multiple Conditions                                     10.6
            Behavior Problems                                       10.5
            Alzheimer’s                                             6.7
            Tracheostomy Care                                       5.9
            Radiation Treatment                                     5.6

            Chemotherapy                                            4.7
            Septemia                                                4.6
            Dementia                                                4.0

            Diabetes                                                3.4
         * Categories are not mutually exclusive              Source: OEI Discharge Planning Survey,
                                                              June 1999


The patients who have become easier to place are those who need rehabilitation
services.

Most discharge planners (69 percent) report that Medicare patients who need special
rehabilitation have become easier to place in nursing homes in the past year. (See Table 6.) They
most commonly report that orthopedic patients, who have had a hip or knee fracture or joint
replacement, and stroke patients, who require intensive short-term rehabilitation, have become
easier to place. At the same time, some discharge planners do not cite specific diagnoses, but
rather comment that patients who require rehabilitation therapy such as physical, occupational, or

Early Effects of PPS on Access to SNFs                 14                           OEI-02-99-00400
speech therapy have become easier to place. Several discharge planners explain that patients
needing rehabilitation generally have short stays in nursing homes and become independent in
activities of daily living quickly. Further, it is important to note that special rehabilitation is
reimbursed at the highest rate under the prospective payment system.

                                      Table 6

       Clinical Conditions that Have Become Easier to Place in the Past Year


                 Clinical Condition*                         Percent of Discharge
                                                                  Planners


                 Orthopedics                                          54.7

                 Stroke/CVA                                           34.5
                 Physical Therapy                                     16.2

                 Rehabilitation Therapy (general)                     13.9
                 Occupational Therapy                                   3.0
                 Speech Therapy                                         2.0

* Categories are not mutually exclusive             Source: OEI Discharge Planning Survey, June 1999

Evidence that Medicare patients are staying in hospitals longer is mixed.

About half of discharge planners believe that the number of Medicare patients who have extended
lengths of stay has increased in the past year. One-third report that this increase is due to the new
prospective payment system. They explain that nursing homes are focusing on the cost of medical
supplies and services and that they are being more selective about which types of patients they
accept. Others attribute the increase in extended stays to fewer beds being available in their area
or to a general increase in the number of patients who need skilled care.

Discharge planners explain that patients who are difficult to place generally remain in the hospital
until they can be placed in a nursing home. Some discharge planners attempt to place these
patients farther away or in alternate forms of care such as home health. In some cases, patients
who are the most difficult to place stay in hospitals until they are able to go home.

Medicare data, however, do not show any substantial increases in the average lengths of stay for
the ten most common diagnoses discharged to SNFs. As shown in Table 7, the average lengths of
stay of these diagnoses are similar for the first five months of 1998 and the first five months of
1999. Note that the average lengths of stay also do not increase for any of the three diagnoses
that are affected by the transfer policy, which we would expect to increase the average length of
stay.

Early Effects of PPS on Access to SNFs                15                                 OEI-02-99-00400
                                            Table 7

                     Average Length of Stay by Diagnosis Related Groups,

                              First Five Months of 1998 and 1999


                                                      January to May January to May
                                                           1998           1999
                                                      Average Length   Average Length      Difference
    DRG                   Description                     of Stay          of Stay         1998-1999

     014    Specific cerebrovascular disorders 1           9.6                8.2              -1.4

     079    Respiratory infections and inflammation        9.3                9.1              -0.2

     088    Chronic obstructive pulmonary disease          6.7                6.8               0.1

     089    Simple pneumonia and pleurisy                  7.2                7.3               0.1

     127    Heart failure and shock                        7.8                7.7              -0.1

     209    Major joint limb reattachment 1                5.4                5.3              -0.1

     210    Hip and femur procedures 1                     6.8                6.7              -0.1

     296    Nutritional/misc. metabolic disorders          7.3                7.1              -0.2

     320    Kidney and urinary tract infections            5.9                6.6               0.7

     416    Septicemia                                     9.8                8.6              -1.2
1
    Included in the transfer policy                         Source: Medicare National Claims History File
Differences were not statistically significant at the .05 level




Early Effects of PPS on Access to SNFs                16                                 OEI-02-99-00400
                                  CONCLUSION

It appears that in an early response to the prospective payment system, some nursing homes have
modified their admission practices. However, despite this practice change, there is no direct
evidence that Medicare patients are not receiving the SNF care they require. This is partly due to
an overall increase in the number of Medicare beds and to the fact that Medicare continues to
reimburse at a higher rate than Medicaid, which is the primary payer of nursing home care.

We stress that this is an early assessment of the effects of the prospective payment system on
access. We believe that the Department must remain vigilant to potential problems for Medicare
patients and for nursing homes. As part of this effort, we will periodically replicate this study of
discharge planners and analysis of Medicare data. We will particularly focus on the types of
patients who were identified as being more difficult to place. Additionally, we suggest that the
Administration on Aging (AoA) alert long-term care ombudsmen to potential admissions
problems in their areas. The AoA also needs to monitor related National Ombudsmen Reporting
System data for patterns of abuse.

COMMENTS

We received comments on the draft report from the Health Care Financing Administration. They
generally agree with our findings and our conclusion and note that our report is consistent with
the early findings of their ongoing monitoring efforts. A copy of their comments is provided in
Appendix B.




Early Effects of PPS on Access to SNFs           17                                  OEI-02-99-00400
                                                                            APPENDIX A



                  CONFIDENCE INTERVALS FOR KEY FINDINGS



We calculated confidence intervals for 7 key findings. The point estimate and 95% confidence
interval are given for each of the following:



                                                                 POINT       CONFIDENCE
                        KEY FINDINGS                            ESTIMATE      INTERVAL
 It is not difficult to place Medicare patients in nursing        65%            61 - 69%
 homes.


 It has become more difficult to place Medicare patients          19%             6 - 32%
 in the past year because of the new prospective payment
 system.


 Nursing homes have changed their admissions practices as         53%            47 - 59%
 a result of the new prospective payment system.


 The new system has had an effect on discharge planners’          65%            60 - 70%
 ability to place Medicare patients in nursing homes.


 Patients requiring extensive services have become more           58%            54 - 62%
 difficult to place in nursing homes in the past year.


 The number of Medicare patients who have extended                32%            20 - 44%
 hospital stays has increased in the past year because of the
 new prospective payment system.


 Medicare patients who need special rehabilitation have           69%            59 - 79%
 become easier to place in nursing homes in the past year.




Early Effects of PPS on Access to SNFs            18                             OEI-02-99-00400
                                                    APPENDIX B


                                         Comments




Early Effects of PPS on Access to SNFs      19        OEI-02-99-00400
Early Effects of PPS on Access to SNFs   20   OEI-02-99-00400
Early Effects of PPS on Access to SNFs   21   OEI-02-99-00400
